Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




The External Review of Hospital Quality

     The Role of Medicare Certification




                      JUNE GIBBS BROWN
                       Inspector General

                           JULY 1999
                         OEI-01-97-00052
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Joyce M. Greenleaf, Project Leader                       Jennifer Antico, Program Specialist
Lynne G. Dugan, Senior Analyst                           Alan Levine, Program Specialist
Meredith A. Vey, Program Analyst




         To obtain copies of this report, please call the Boston Regional Office at 617/565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                      SUMMARY

PURPOSE

          To assess the role of the Health Care Financing Administration and Medicare certification
          in the external review of hospital quality.

BACKGROUND

External Quality Review of Hospitals in the Medicare Program

                  Hospitals routinely offer valuable services, but also are places where poor care can
          lead to unnecessary harm. The external quality review of hospitals plays an important role
          not only in protecting patients from such harm, but also in complementing the hospitals’
          own internal quality efforts. The Federal Government relies on two types of external
          review to ensure hospitals meet the minimum requirements for participating in Medicare:
          accreditation, usually by the Joint Commission on Accreditation of Healthcare
          Organizations, and Medicare certification, by State agencies. About 20 percent of the
          6,200 hospitals that participate in Medicare are nonaccredited and certified by the States.

This Inquiry

                  This report, part of a series of four companion reports that resulted from our
          inquiry, focuses on the Medicare certification process, carried out by State agencies. Our
          inquiry draws on aggregate data, file reviews, surveys, and observations from a rich
          variety of sources, including the Health Care Financing Administration (HCFA), the Joint
          Commission, State agencies, and other stakeholders.

                 We organized this report around a framework for considering the external review
          of hospital quality. This framework consists of five components: announced, on-site
          surveys of hospitals; unannounced, on-site surveys of hospitals; responses to complaints
          concerning hospitals; responses to major adverse events in hospitals; and collection and
          dissemination of standardized performance measures.

FINDINGS

The HCFA’s routine hospital certification surveys are a low priority.

          The backlog of surveys is growing. The proportion of nonaccredited hospitals not
          surveyed within the 3-year industry standard grew from 28 percent in 1995 to 50 percent


Hospital Quality: The Role of Medicare             1                                     OEI-01-97-00052
          in 1997. For those hospitals waiting over 3 years for a survey, the average time between
          surveys is over 5 years. In fact, the total number of certification surveys conducted
          decreased from 286 surveys in 1995 to 184 surveys in 1997, a drop of 36 percent.

The HCFA’s survey and certification budget goes first to nursing homes and
home health agencies, which have mandated survey cycles that hospitals lack.

                  Hospital certification surveys appear 10th on a list of 12 HCFA workload priorities
          for States, behind surveying both nursing homes and home health agencies. Congress
          mandates that HCFA survey nursing homes and home health agencies on a regular cycle.
          Hospitals lack such a mandate.

The HCFA’s hospital review focuses on complaints and serious incidents.

                  State survey agencies are the front-line responders to complaints and serious
          incidents at both accredited and nonaccredited hospitals. The HCFA assigns responding
          to such events a higher budget priority than routine surveys.

The HCFA’s certification survey results fail to make meaningful distinctions
among nonaccredited hospitals.

                  Certification surveys simply result in a status of certified or not certified; no grades
          or rankings stem from the survey. Hospitals rarely fail to achieve certification. The
          HCFA decertified 7 hospital in 3 years.

The HCFA has not sought to collect or disseminate standardized performance
data for nonaccredited hospitals.

                  While HCFA has made strides in collecting data from other provider types, such as
          home health, managed care, and nursing homes, it is not currently collecting or analyzing
          such data as part of its system of hospital review. However, the proposed revision of the
          hospital conditions of participation (issued on December 19, 1997) invite comments on
          whether HCFA should collect performance data and what that data should encompass.


CONCLUSION

                  In the domain of external quality reviews, the State agencies play major roles as
          troubleshooters: responding to complaints and serious incidents at accredited and
          nonaccredited hospitals. But given the limited pool of Federal funds available to support
          State survey and certification activities in general and the relatively low priority of routine
          hospital surveys in particular, the 1,442 nonaccredited hospitals across the country receive
          insufficient attention through external reviews. Surveys of such hospitals tend to be

Hospital Quality: The Role of Medicare               2                                       OEI-01-97-00052
          triggered on the basis of a serious incident involving patient harm rather than as part of a
          routine review intended to prevent such incidents. This is the central and troubling
          conclusion of this report. In our summary report, A Call for Greater Accountability, we
          direct our recommendations to HCFA stemming from this report and our entire inquiry.


COMMENTS

                   Within the Department of Health and Human Services, we received comments
          from HCFA. We also solicited and received comments from the following external
          parties: Joint Commission on Accreditation of Healthcare Organizations, Association of
          Health Facility Survey Agencies, American Osteopathic Association, American
          Association of Retired Persons, Service Employees International Union, National Health
          Law Program, and Public Citizen’s Health Research Group. We include the detailed text
          of all of these comments and our responses to them in our summary report, The External
          Review of Hospital Quality: A Call for Greater Accountability (OEI-01-97-00050).




Hospital Quality: The Role of Medicare              3                                      OEI-01-97-00052
                             TABLE OF CONTENTS

                                                                                                                                 PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FRAMEWORK FOR EXTERNAL QUALITY REVIEW OF HOSPITALS . . . . . . . . . . . . . 8


PROFILE OF MEDICARE CERTIFICATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


FINDINGS

          Surveys Are a Low Priority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10

          Focus on Complaints and Adverse Events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      12

          Survey Results Fail to Make Meaningful Distinctions . . . . . . . . . . . . . . . . . . . . . . . . . .                         13

          No Standardized Hospital Performance Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       13


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES

          A: Medicare Conditions of Participation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 16

          B: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      17

          C: Certification Survey Observation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19

          D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   26





Hospital Quality: The Role of Medicare                              4                                                    OEI-01-97-00052
                                         INTRODUCTION

PURPOSE

          To assess the role of the Health Care Financing Administration’s Medicare certification in
          the external review of hospital quality.

BACKGROUND

Hospital Safety

                  Hospitals are an integral part of our healthcare system, offering services that
          improve, extend, and even save lives. But they are also places where inappropriate care
          can lead to unnecessary harm. This reality was clearly underscored in 1991, when a
          Harvard medical practice study revealed the results of its review of about 30,000
          randomly selected records of patients hospitalized in New York State during 1984. The
          study found that 1 percent of the hospitalizations involved adverse events caused by
          negligence.1 On the basis of its sample, the study team estimated that during that year,
          negligent care provided in New York State hospitals was responsible for 27,179 injuries,
          including 6,895 deaths and 877 instances of “permanent and total disability.” Many other
          more recent studies have reinforced the concerns raised by the Harvard study. Of
          particular note was one that focused on the care received by 1,047 hospitalized patients in
          a large teaching hospital affiliated with a medical school. It found that 17.7 percent of
          these patients received inappropriate care resulting in a serious adverse event--ranging
          from temporary disability to death.2 In the public eye, these scholarly inquiries have been
          overshadowed by media reports that describe, often in graphic detail, the harm done to
          patients because of poor hospital care.3

                  Hospitals rely upon a variety of internal mechanisms, from physician credentialing,
          to peer review and benchmarking, in order to try to avoid such incidents and to improve
          the quality of care provided in their facilities. External quality review serves as a vital
          additional safeguard. It provides a more detached, independent mechanism for assessing
          the adequacy of hospital practices. Such oversight is of fundamental importance to
          patients and to the public and private entities that purchase health care services on their
          behalf. Protecting patient safety and improving the quality of patient care must be a top
          priority of external review.

Medicare’s Interest in External Hospital Quality Review

                The Medicare program covers about 38 million elderly and disabled individuals,
          many of whom are high users of hospital care.4 In 1997, Medicare spent about $136

Hospital Quality: The Role of Medicare             5                                     OEI-01-97-00052
          billion on Part A, the hospital insurance benefit.5 This figure is just over half the total
          amount the Federal government spent on all Medicare benefits.6 In the same year,
          Medicare spent over $80 billion for inpatient acute hospital care alone.

                  Since Medicare’s inception, external quality review has been a part of the
          Medicare program. When Congress enacted the Medicare Act in 1965, it required
          hospitals to meet certain minimum health and safety requirements to participate in the
          program.7 Those minimum requirements, called the Medicare conditions of participation,
          were published in 1966, revised in 1986, and are now being revised again (see appendix
          A).8 Within the Medicare Act itself, however, Congress provided that hospitals
          accredited by the Joint Commission on Accreditation of Healthcare Organizations were
          deemed to be in compliance with the conditions of participation. Congress also provided
          that hospitals accredited by the American Osteopathic Association could be considered in
          compliance, but only to the extent that the Secretary deemed appropriate.9 Thus,
          accreditation by the Joint Commission or the American Osteopathic Association provides
          entree into the Medicare program. About 80 percent of the 6,200 hospitals that
          participate in Medicare are accredited by the Joint Commission. Those hospitals wishing
          to participate in Medicare without accreditation must go through a Medicare certification
          process. The Health Care Financing Administration (HCFA) relies on State survey and
          certification agencies (hereafter called State agencies) to conduct certification surveys at
          these hospitals to determine compliance with the Medicare conditions of participation.
          States currently certify 1,442 nonaccredited hospitals nationwide.10

                  Regardless of the route a hospital takes to Medicare participation, Medicare bears
          a cost for the external review, either directly by funding State agencies or indirectly
          through hospital charges that include the overhead cost of periodic accreditation surveys.

The Nature of Medicare Certification

                   The Medicare certification process is a public, regulatory function. It aims to
          ensure that hospitals wishing to serve Medicare beneficiaries, but not wishing to be
          accredited, meet the conditions of participation. The 51 State agencies conduct the onsite
          certification surveys on HCFA’s behalf. The Medicare certification process is available at
          no cost to hospitals.

This Inquiry and Report

                  This report examines the role of Medicare certification in the external review of
          hospital quality. It focuses on the hospital survey work undertaken by State certification
          agencies on behalf of HCFA. In this report, we offer a framework for considering the
          external review of hospital quality and apply that framework to Medicare certification.




Hospital Quality: The Role of Medicare               6                                       OEI-01-97-00052
                  This report is part of a series of four companion reports that resulted from our
          inquiry. A second, The Role of Accreditation (OEI-01-97-00051), assesses the Joint
          Commission’s approach to hospital accreditation. A third, Holding the Reviewers
          Accountable (OEI-01-97-00053), describes how HCFA oversees both the Joint
          Commission and the State survey agencies. The fourth report, A Call for Greater
          Accountability (OEI-01-97-00050), provides a summary of external hospital quality
          review and presents the recommendations emerging from our inquiry.

                   Our inquiry draws on a variety of sources. These include: data from HCFA’s
          Online Survey Certification and Reporting System; aggregate data from the Joint
          Commission concerning hospital survey activity; a pretested mail survey to State agencies
          in the 50 States and District of Columbia (hereafter referred to as a State); observations of
          the hospital surveys conducted by the Joint Commission and State agencies; reviews of
          accreditation manuals, policies, and hospital survey files from the Joint Commission; the
          systematic gathering of information from representatives of HCFA central and regional
          offices, State agencies, the Joint Commission, American Hospital Association, consumer
          groups, professional associations, and representatives of other organizations we
          considered to be stakeholders in hospital oversight; and reviews of laws, regulations and
          articles from newspapers, journals, newsletters, and magazines. We also interviewed
          officials from the American Osteopathic Association and reviewed their accreditation
          materials. The American Osteopathic Association accredits about 100 to 150 hospitals,
          some of which are also accredited by the Joint Commission. For purposes of this inquiry,
          however, we focused on the Joint Commission. See appendix B for more details on our
          methodology.

                 We conducted this inspection in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Hospital Quality: The Role of Medicare              7                                     OEI-01-97-00052
             HOSPITAL                         REVIEW                     FRAMEWORK

                   The following five components present a framework for considering the external quality review
          of hospitals. They are intended to complement the internal quality assurance and improvement efforts
          that hospitals undertake themselves. They are approaches that health care purchasers, such as Medicare
          and Medicaid, can rely upon to ensure that their beneficiaries receive quality services from hospitals.
          They can also be of use to beneficiaries and other consumers concerned about the quality of their hospital
          care.

                   We present the components to facilitate analysis of the extent and type of external review that is
          desirable, whether carried out by accreditation bodies, certification agencies, Medicare Peer Review
          Organizations, HCFA, or others. Each component has strengths and limitations. Moreover, each can be
          used in support of a review philosophy based on continuous quality improvement, more traditional
          compliance enforcement, or some combination thereof.

                    We omitted a sixth component: the retrospective review of medical records to determine
          appropriateness of care. Formerly a role of the Medicare Peer Review Organizations, such medical record
          review is no longer carried out on such a large scale. However, some medical record review does occur as
          part of the components described below.

          1. Announced, On-Site Surveys of Hospitals
                   These involve some combination of observations of facility and equipment; reviews of medical
          credentials, and other records and documents; and interviews. They result in a pass/fail or some kind of
          score intended to distinguish level of performance. They can also involve follow-up to correct or improve.

          2. Unannounced, On-Site Surveys of Hospitals
                   The approach is basically the same as above except that the hospital has not had time to prepare.
          The intent is to gain a clear assessment of the facility as it typically functions and to trigger any necessary
          follow-up.

          3. Response to Complaints Concerning Hospitals
                   These involve complaints of a particular instance of care or more encompassing matters
          concerning a hospital’s performance. The response to complaints can range from a minimal distant
          review to a thorough on-site review. The process can trigger corrective actions and system improvements.

          4. Response to Major Adverse Events in Hospitals
                   These involve cases where substantial patient harm resulted from what may be poor performance
          on the part of the hospital and/or its practitioners. Here, too, the response can range from minimal to
          thorough and can trigger corrective actions and system improvements.

          5. Collection and Dissemination of Standardized Performance Measures
                   The aim here is to establish the standardized use of measures in ways that enable purchasers,
          consumers, accrediting bodies, and others to compare hospital performance. The comparisons can focus
          on a hospital’s own performance over time and/or on how its performance compares to other hospitals.
          The data can be drawn from surveys of patients or providers, billing claims, and the hospitals’ own
          records.




Hospital Quality: The Role of Medicare                      8                                             OEI-01-97-00052
            PROFILE                           OF         CERTIFICATION

                  The table below summarizes our assessment of Medicare’s approach to certifying
          nonaccredited hospitals, based on the framework we presented on the previous page. The
          report generally follows this profile in its evaluation of Medicare certification.

                 State agencies carry out certification surveys under the same guidelines from
          HCFA. However, their implementation is likely to vary from State to State. We observed
          one routine, announced certification survey, and include our observations in appendix C.


         Element                              Description                             Degree of Emphasis

 Routine, Announced,         State agencies conduct surveys, on behalf of      Minor. Low spending priority. No
 On-Site Surveys             HCFA, to assess compliance with Medicare          mandate requiring certification
                             conditions of participation. Can involve          surveys at regular time intervals.
                             follow-up.

 Random,                     Not Conducted.                                    None
 Unannounced, On-
 Site Surveys

 Responses to                State agencies conduct focused, unannounced       Major. Core of HCFA’s oversight.
 Complaints                  surveys in both accredited and nonaccredited      High spending priority.
                             hospitals on any condition of participation
                             involved in a complaint. Survey can be
                             expanded to include all conditions if the State
                             agency finds conditions out of compliance. For
                             accredited hospitals with conditions found out
                             of compliance, HCFA can remove deemed
                             status. Can involve follow-up.

 Responses to Serious        Same as complaints.                               Same as complaints; HCFA makes
 Incidents                                                                     no distinction.

 Standardized                Not Collected.                                    12/19/97 Federal Register Notice
 Performance Data                                                              solicited comments on whether
                                                                               HCFA should collect performance
                                                                               data.




Hospital Quality: The Role of Medicare                      9                                        OEI-01-97-00052
                                         FINDINGS

The HCFA’s routine hospital certification surveys are a low
priority.

The backlog of surveys is growing.

                  In 1995, 28 percent of nonaccredited hospitals nationwide had not been surveyed
          within the 3-year industry standard.11 By 1996, that backlog grew to 37 percent. By
                                                                      1997, 50 percent of the 1,361
                               Figure 1                               nonaccredited hospitals in the
                                                                      50 States and the District of
                                                                      Columbia had not had a survey
                                                                      in at least 3 years (see Figure
                                                                      1).12

                                                                             The average elapsed
                                                                     time between surveys is
                                                                     currently just over 3 years.
                                                                     Just a few years ago, States
                                                                     were doing much better, with
                                                                     elapsed times averaging 1 and
                                                                     2 years.13 The increasing time
                                                                     between surveys coincides
                                                                     with the dramatic rise in home
                                                                     health agencies--which State
                                                                     agencies must also survey.

                                                                             The average elapsed
                                                                     time is growing for all but a
                                                                     handful of States. For those
     Source: HCFA’s OSCAR System.
                                                                     hospitals waiting over 3 years
                                                                     for a survey, the average time
         between certification surveys is over 5 years. Nationwide, 1 in 5 States had at least 1
         hospital go as long as 8 years without a survey. Indeed, the total number of certification
         surveys conducted has dropped 36 percent in 2 years: from 286 surveys in 1995 to 184
         surveys in 1997.14

                 The situation is worse in States with the most nonaccredited hospitals. Four States
          account for 27 percent of the nonaccredited hospitals in the country: Texas, Kansas,


Hospital Quality: The Role of Medicare            10                                    OEI-01-97-00052
          California, and Louisiana. Each of those States has over 50 nonaccredited hospitals. The
          average elapsed time between surveys in Texas is 4.4 years; in Kansas, 4.6 years; in
          California, 4.5 years; and Louisiana, 3.8 years. Between October 1, 1996 and September
          30, 1997, Texas conducted just 4 routine certification surveys; Kansas conducted 8;
          California, 13; and Louisiana, 3.15

                  Of course, nonaccredited hospitals are also subject to State licensure laws, another
          form of external hospital oversight. Indeed, every State except Ohio requires hospitals to
          be licensed. But what that licensure translates to in terms of on-site surveys at
          nonaccredited hospitals varies considerably across the States. Surveying nonaccredited
          hospitals on-site is a costly undertaking for States.16 Indeed, 25 States reported trying to
          piggyback their State licensure surveys onto Medicare certification surveys whenever
          possible--making licensure surveys unlikely without a certification survey. The number of
          recent licensure surveys among the four States with the most nonaccredited hospitals
          ranged from surveying all (California) to surveying none (Texas); with Kansas and
          Louisiana surveying 30 and 40 percent respectively.17

The HCFA’s survey and certification budget goes first to nursing
homes and home health agencies.

                  Hospital certification surveys appear 10th on a list of 12 HCFA workload priorities
          for States, behind surveying nursing homes, Intermediate Care Facilities for the Mentally
          Retarded, home health agencies, and all types of complaint investigations and allegations
          of patient dumping.18 By statute, HCFA must survey nursing homes and home health
          agencies at regular time intervals, an activity that uses up most of the survey budget.19
          Hospitals, however, lack such a mandate, making hospital surveys significantly more
          vulnerable to budget cutting. In fact, the portion of HCFA’s 1997 survey budget
          dedicated to hospital certification surveys appears to have dropped by about half from that
          of 1996.20

                 For Fiscal Year 1999, HCFA funded States to survey 10 percent of the 1,415
          nonaccredited hospitals, or a total of 140 hospitals.21 With this level of funding, States
          could survey hospitals every 10 years. By contrast, HCFA funds surveys for 62 percent of
          home health agencies per year.22 That means for 1999, HCFA will fund surveys for over
          6,000 of the 10,119 home health agencies.23 At that level of funding, States could survey
          home health agencies about every 18 months. One director of a State Health Department
          captured some of the frustration surrounding hospital survey funding in a 1997 letter to
          the Secretary of Health and Human Services where she writes:

                    At a time when the health care system is changing more rapidly than ever before
                    and pressure for cost reduction creates the potential for reduced quality, our
                    budget in the Health Department has been cut in half. An example of the impact of
                    this cut is the incredible reduction in funds for hospital survey activity...This

Hospital Quality: The Role of Medicare             11                                    OEI-01-97-00052
                    potentially means that Medicare beneficiaries may be deprived of access to a
                    hospital where they can receive quality health care services. Most of the Medicare
                    allocation...supports...[regulating] nursing homes.

                   In addition to contending with low Federal priority, half the States report having
          fewer hospital survey staff now than they did 5 years ago. States do, however, have some
          flexibility in deciding which hospitals to survey with their limited resources. Most States
          identified two factors as playing major roles in those decisions: complaints received about
          hospital care (identified by 41 of 50 States) and time elapsed since the last certification
          survey (identified by 35 of 50 States). (For a summary of our observations from one
          Medicare certification survey conducted by one State agency, see appendix C.)



The HCFA’s hospital review focuses on complaints and
serious incidents.
                  The HCFA spends most of its hospital survey budget investigating complaints and
          serious incidents at either accredited or nonaccredited hospitals. These activities fall third
          on HCFA’s list of survey budget priorities.24 Thus, HCFA and the States devote far more
          resources to responding to complaints than conducting announced surveys of
          nonaccredited hospitals, which fall 10th on that list. In fact, according to data reported by
          HCFA, State agencies conducted several thousand complaint surveys over the past few
          years: 2,166 in 1996, 2,079 in 1997, and 1,577 in 1998. This level of attention reflects
          the expectations of stakeholders who largely view government--State and Federal--as
          public protectors: in their words, “It falls on the government to be the bad guy, or
          policeman” and “it’s a traditional government function [to respond to such events].”25

                 The focus on responding to complaints and serious incidents has grown in recent
          years: 38 of the 51 States (75 percent) we surveyed reported that the number of hospital
          complaints they receive has increased over the last few years. Of course, some of this
          increase could be due to the anti-dumping laws passed in 1986, which spawned
          complaints.26 Plus, errors in hospitals appear to be garnering the media’s, and therefore
          HCFA’s and the States’, attention.27 The HCFA regional offices also receive complaints
          and refer them on to the States. The States, in turn, look to HCFA for guidance on which
          complaints to investigate, especially when the hospitals in question are accredited.

                  Unlike certification surveys, which are announced in advance, most responses to
          complaints and incidents are unannounced. The responses tend to be intensive, focusing
          on a specific service area or incident--at least at the start--because Federal law requires the
          scope of that response to be limited to the particular condition in question.28 But, if the
          surveyors find a hospital to be out of compliance with a condition during that narrow
          investigation, they can expand the scope of their response to encompass all the conditions
          of participation.29 Responses to complaints and incidents also tend to last longer than the

Hospital Quality: The Role of Medicare Certification   12                               OEI-01-97-00052
          few days it takes to conduct a certification survey. For example, we observed parts of one
          response that lasted 2 weeks.

The HCFA’s certification survey results fail to make
meaningful distinctions among nonaccredited hospitals.
                  Certification surveys simply result in a status of certified or not certified. They
          neither rank nor grade hospitals. Surveyors can find three levels of deficiencies:
          condition-level, standard-level, and requirement-level. One hospital could have
          deficiencies in one, two, or all three levels. Condition-level deficiencies are the most
          serious. Hospitals with standard- and/or requirement-level deficiencies can maintain their
          Medicare certification. In fact, HCFA does not require such hospitals to make
          corrections. Only condition-level deficiencies can terminate a hospital’s certification
          status. And that rarely happens. The HCFA reports that it terminated 7 hospitals over the
          past 3 years: 2 in 1996, 3 in 1997, and 2 in 1998.

                  The path to termination is not direct, however, as the survey process gives
          hospitals opportunities to correct their condition-level deficiencies. Medicare surveyors
          use termination notices to prompt hospitals to make corrections. The HCFA uses a
          termination notice as a temporary certification status; hospitals either correct their
          deficiencies and receive full certification or are terminated. When Medicare surveyors find
          a hospital to be out of compliance with the conditions to such an extent that patients are in
          jeopardy, they use the 23-day termination notice. For hospitals with condition-level
          deficiencies but no finding of patients in jeopardy, surveyors use a 90-day termination
          notice. The HCFA does not track the number of hospitals that receive termination
          notices.



The HCFA has not sought to collect or disseminate
standardized performance data for nonaccredited hospitals.
                  The HCFA is not currently collecting or analyzing standard hospital performance
          data or quality measures as part of its system of reviewing hospitals. The proposed
          revisions to the hospital conditions of participation (issued on December 19, 1997) invite
          comments on both whether HCFA should collect standardized performance data and what
          that data might encompass. But while the proposed conditions note an intent to collect
          such data, they fall short of requiring it because “we do not believe it is reasonable to
          establish any related requirements at this time, in view of the lack of any current consensus
          or science that could establish a reliable and valid set of measures.”30 Stakeholders with
          whom we spoke endorsed the concept of HCFA establishing and collecting standardized
          performance data, identifying it as an “appropriate role” and a “route toward nationally
          comparable data.”

Hospital Quality: The Role of Medicare Certification   13                             OEI-01-97-00052
                   The HCFA has been more involved in standardized performance data in other
          provider settings than it has in hospital settings. For example, it led in developing the
          home health data set, which will support performance measurement, for home health
          agencies.31 Furthermore, it recently developed the a set of quality standards for managed
          care organizations.32 It has also called for the managed care organizations that enroll
          Medicare beneficiaries to report certain standardized data in the form of indicators.33
          Indeed, it was involved in developing the indicators for the Medicare population.34
          Additionally, HCFA was involved in the development of the Quality Assurance Reform
          Initiative, a guide for State Medicaid agencies as they develop methods and standards for
          monitoring the quality of care provided to Medicaid managed care enrollees.

                  To date, however, no single system of performance data for hospitals has emerged
          as the industry standard. Hundreds of such systems exist, though, and hospitals all over
          the country have implemented them according to their own needs. The proposed
          conditions do call for hospitals to have their own system of performance measurement in
          place. Their approaches must encompass a “continuous effort to improve...performance,
          incorporating to the greatest extent possible an approach that focuses on the hospital’s
          performance in improving patient outcomes and satisfaction...[and] would require that
          each hospital develop, maintain, and evaluate an effective data-driven quality assessment
          and performance improvement program.”35 Indeed, many hospitals have already invested
          in a variety of such systems.




Hospital Quality: The Role of Medicare Certification   14                           OEI-01-97-00052
                                           CONCLUSION

                  In the domain of external quality reviews, the State agencies play major roles as
          troubleshooters: responding to complaints and serious incidents at accredited and
          nonaccredited hospitals. But given the limited pool of Federal funds available to support
          State survey and certification activities in general and the relatively low priority of routine
          hospital surveys in particular, the roughly 1,415 nonaccredited hospitals across the
          country receive insufficient attention through external reviews. Surveys of such hospitals
          tend to be triggered on the basis of a serious incident involving patient harm rather than as
          part of a routine review intended to prevent such incidents. This is the central and
          troubling conclusion of this report. In our summary report, A Call for Greater
          Accountability, we direct our recommendations to HCFA stemming from this report and
          our entire inquiry.




Hospital Quality: The Role of Medicare Certification   15                               OEI-01-97-00052
                                                                                         APPENDIX A



                                Medicare Conditions of Participation

         The Medicare conditions of participation (COP) were first published in 1966 and revised in 1986 (42
C.F.R. 482.1-482.66). On December 19, 1997, HCFA published a proposed COP for hospitals ( 62 Fed. Reg.
66,726). On July 2, 1999, it published an interim final rule concerning patients’ rights. Below are the components
of the existing COP for non-specialty hospitals from 1986, followed by the components of the new proposed COP.

                Existing COP                                              Proposed COP
Subpart A- General Provisions                          Subpart A- General Provisions

Provision of emergency services by                     Patient Rights (issued as an interim final rule July 2, 1999)
         nonparticipating hospitals
                                                       Subpart B- Patient Care Activities
Subpart B- Administration
                                                       Patient Admissions, assessment, and plan of care

Compliance with Federal, State, and local laws         Patient care

Governing Body                                         Quality assessment and performance improvement

                                                       Diagnostic and therapeutic services or 

Subpart C- Basic Hospital Functions                             rehabilitation services
                                                       Pharmaceutical services
Quality assurance
                                     Nutritional services
Medical staff
                                         Surgical and anesthesia services
Nursing services
                                      Emergency services
Medical record services
                               Discharge Planning
Pharmaceutical services

Radiologic services
                                   Subpart C- Organizational Environment
Laboratory services

Food and dietetic services
                            Administration of organizational environment

Utilization review
                                    Infection control

Physical environment
                                  Human resources

Infection control
                                     Physical environment

                                                       Life safety from fire

Subpart D- Optional Hospital Services                  Blood and blood products transfusions

                                                       Potentially infectious blood and blood products

Surgical services                                      Utilization review

Anesthesia services
Nuclear medicine services
Outpatient services
Emergency services
Rehabilitation services
Respiratory care services




Hospital Quality: The Role of Medicare Certification   16                                        OEI-01-97-00052
                                                                                  APPENDIX B


                                                       Methodology

                    We collected information presented in this report from the following sources:

The HCFA

                   We obtained dates of certification surveys from HCFA’s Online Survey
          Certification and Reporting System (OSCAR). The HCFA authorizes States to update
          and maintain this database with survey information. We extracted survey data pertaining
          to the frequency of certification surveys. We subsequently verified the accuracy of our
          extraction by comparing it to on-line OSCAR system information to ensure the dates we
          used corresponded to routine certification surveys, rather than complaint investigations or
          other types of surveys. We are satisfied that our information is as accurate as HCFA’s
          OSCAR system.

                  Additionally, we selected 4 States (California, Kansas, Minnesota, and Texas) that
          contain over 50 nonaccredited hospitals and represented different areas of the United
          States. We then examined the OSCAR data for those States in greater detail. We verified
          the status of the nonaccredited hospitals in those States which had not been surveyed in
          over 5 years using the American Hospital Association’s 1997 Hospital Guide.

                  We also interviewed staff and managers at each HCFA regional office and the
          central office. We reviewed a variety of HCFA documents, including budget call letters,
          reinvention materials, and reports to Congress, among others.

The State Survey and Certification Agencies

                   In August 1997, we mailed a pretested survey to the hospital certification agencies
          in the 50 States and the District of Columbia. The response rate for this survey was 100
          percent. The State survey addressed four areas of hospital quality oversight: private
          accreditation of hospitals, Medicare certification of hospitals, HCFA oversight of State
          certification agencies, and State licensure of hospitals. We interviewed State officials on
          the telephone or in person as well.

Accrediting Organizations

                 We interviewed officials from both the Joint Commission on Accreditation of
          Healthcare Organizations and the American Osteopathic Association. We also reviewed
          documents from both organizations, including mission statements, accreditation manuals,


Hospital Quality: The Role of Medicare Certification       17                         OEI-01-97-00052
                                                                                APPENDIX B


          policies, and hospital survey files. We requested and received aggregate data from the
          Joint Commission reflecting its recent hospital survey activity. All Joint Commission data
          are presented as reported by the Joint Commission, unless otherwise noted. For purposes
          of this inquiry, we focused our analysis on the Joint Commission.

Survey Observations

                  Based on schedules of upcoming triennial surveys, we identified nine hospitals in
          which to observe triennial Joint Commission surveys. Of those, we were able to observe
          seven. In two cases, the hospitals declined the Joint Commission’s request that we be
          allowed to observe. The 7 hospitals varied in size from 80 to 775 beds, represented both
          teaching and community hospitals, and were located in different areas of the country (both
          rural and urban). We also observed one random unannounced Joint Commission survey.
          Although we observed different teams of surveyors, the survey agenda, lines of inquiry,
          and tone were consistent across the surveys, which were conducted in accordance with
          Joint Commission policy, based on review of survey manuals and interviews with
          representatives of the Joint Commission. Finally, we observed a certification survey and
          parts of two complaint investigations performed by State surveyors under HCFA’s
          auspices.

Stakeholder Interviews

                 We interviewed representatives of organizations we considered to be stakeholders
          in hospital oversight. These stakeholder organizations included a union, professional
          organizations, hospital associations, and consumer groups.

Other Documents

                  In addition to the documents referenced above, we reviewed statutory and
          regulatory language and a variety of articles from newspapers, journals, magazines, and
          newsletters.




Hospital Quality: The Role of Medicare Certification   18                           OEI-01-97-00052
                                                                                  APPENDIX C



                                             Certification Survey

                 During the course of our inquiry, one Office of Inspector General (OIG) analyst
          observed one Medicare certification survey. What follows is a summary of the
          observations from that survey.

Background

                  The survey was of a 34-bed nonaccredited county hospital located in a rural area.
          The hospital had recently undergone major renovations but still used parts of the older
          buildings, which were at least 50 years old. Staff could pass from the renovated parts of
          the building to the older parts, and construction was still underway. Plastic strips hung in
          doorways to minimize the dust from the ongoing renovations. The pharmacy and
          operating rooms were housed in the older building, which was plagued by roof leaks and a
          finicky cooling system, leaving the area humid and musty. Warehouse style buildings in
          the back of the hospital housed the medical records and some administrative offices.

                  The hospital came under new management 2 years prior to the observed survey.
          During the time of the survey, the hospital had an average daily census of 13, an increase
          over prior years. Most of the surgeries performed at this hospital were hernia repairs,
          cholecystectomies, or gynecological procedures. Since the renovations, the hospital
          experienced an increase in deliveries.

                  Three experienced nurse surveyors and one surveyor in training (also a nurse)
          surveyed this hospital. One served as team leader. All of the surveyors had clinical
          nursing experience. At least one surveyor had been at the hospital previously. Before
          arriving at the hospital, they reviewed the State’s historical files of compliance and
          complaints for this hospital. Thus they were familiar with the hospital’s history of
          compliance problems. They were also aware of the hospital’s recent problems involving
          physicians on the hospital staff. For example, one physician on staff was imprisoned for
          narcotics abuses and another lost his medical license due to a pattern of unnecessary
          surgeries, high complication rates, and poor care.

                    The State survey agency notified the hospital of the survey 3 weeks in advance.




Hospital Quality: The Role of Medicare Certification   19                             OEI-01-97-00052
                                                                                   APPENDIX C



Summary Observations

                  The survey began around 11:30 in the morning on the first day and went until noon
          on the third day, lasting about 19 hours total. The surveyors continued surveying until
          5:30 or 6:00 PM on the first 2 days. The survey began with an opening conference that
          included the surveyors and the hospital’s leadership. After general introductions and
          reviewing a loose agenda, the hospital presented an overview of its recent improvements.
          Then the surveyors began their document reviews, which covered hospital logs, minutes,
          bylaws, and medical records, among others. By early afternoon, the surveyors split up to
          begin their sessions, with the trainee always assigned to follow a senior surveyor.

                  The surveyors relied on interviews, document reviews, and observations. Once or
          twice a day, the surveyors would compare notes and share concerns so others could
          pursue them in different areas of the hospital. The surveyors selected the files they would
          review themselves, based on staff rosters; surgical, admission, and emergency logs; and
          other documents. They also pushed alarm bells and observed responses. They tested the
          hospital staff’s knowledge by asking them to demonstrate certain tasks, such as turning on
          pieces of equipment, testing a defibrillator, changing oxygen tanks, and sterilizing a scope.

                 Through the information gleaned from the above, the surveyors identified a range
          of concerns. Among them were the following:

          <	        Staff were untrained in certain hospital equipment. For example, when surveyors
                    asked for a demonstration of the hospital’s new negative pressure room, no one
                    knew how to turn it on.

          <	        The hospital’s emergency call systems were inadequate. For example, the
                    surveyors pulled call bells in the emergency room and procedures room. No one
                    answered the calls.

          <	        Medical record documentation was problematic. In particular, patient consent
                    forms failed to spell out risks in lay terms and included broad consent for “any
                    other necessary procedure.” Physician signatures were also missing from records.
                    Legibility was a problem, too.

          <	        The nursing department appeared to have inadequate staff. Also, the nursing
                    department failed to use individualized care plans, follow-through on incident
                    reports, or identify patients’ educational needs.


Hospital Quality: The Role of Medicare Certification   20                              OEI-01-97-00052
                                                                                   APPENDIX C



          <	        The hospital lacked a policy for transferring high-risk obstetrical patients, had a
                    high c-section rate, and lacked documentation for fetal distress. For example, the
                    hospital delivered an infant at 27-weeks gestation even though it lacked neonatal
                    capacity. Furthermore, three of six obstetrical records the surveyors reviewed
                    documented some sort of adverse outcome.

          <	        The hospital lacked a performance appraisal system for its medical staff and its
                    reappointment process excluded peer review data. Furthermore, physicians
                    covering the emergency room lacked privileges for common emergency
                    procedures, such as placing chest tubes and performing tracheotomies.

          <	        The appropriateness of care in three or four records was questionable. The
                    surveyors copied those records and forwarded them to a peer review organization
                    for review.

                   During the exit conference (the last session of the survey), the surveyors discussed
          their findings, but couched their comments as preliminary. After all, they had collected a
          variety of documents to review and analyze off-site. Findings from those documents could
          alter their on-site findings. The hospital would not know the final survey outcome until
          that process occurred (see page 23 for a final summary of the survey’s findings).

                  Sessions observed by the OIG included, in part or in whole, pharmacy, medical
          staff, nursing, discharge planning, operating and recovery rooms, procedure room,
          emergency room, dietary, and the building and grounds tour. Highlights of some of the
          observed sessions follow.

Medical Staff Session

                   This session lasted 3 hours on the first day and continued for 1 hour on the second
          day. Before beginning the session, the surveyor read the bylaws. During the session, she
          interviewed the administrative staffperson in charge of credentialing and reviewed
          credential files. She selected the files herself, and by the end of the second day, had
          reviewed the credentials of each of the six staff physicians, among others. In questioning
          the staff and reviewing the files, the surveyor was especially interested in how the medical
          staff took responsibility for quality, how the hospital delineated privileges, and evidence of
          a reappraisal and peer review system. No one from the medical staff participated in this
          session.




Hospital Quality: The Role of Medicare Certification   21                               OEI-01-97-00052
                                                                                     APPENDIX C



                  The surveyor interview covered the following topics: appointment and
          reappointment process, language skills of foreign medical graduates, reliance on the
          American Medical Association’s physician profile database, conscious sedation,
          emergency room coverage and procedures, the on-call system, pending litigation, licensure
          limitations, prerequisites for active staff, availability of surgical services, use of podiatrists
          and psychologists, autopsies, organ donation, physician experience and competence with
          certain procedures, unexpected surgical outcomes such as perforations, role of chart
          review, and medical staff involvement in appraisal process.

                   As this session unfolded over the 2 days, the surveyor asked for more and more
          files, and then operating room logs and other documents to confirm the range of
          procedures the hospital provided fell within the privileges granted. By the end of the
          session, the surveyor identified some areas of concern. For example, she expressed
          concerns about privileges because physicians responsible for covering the emergency room
          lacked privileges for common emergency room procedures such as chest tubes. The
          surveyor offered examples of similar problems at other hospitals that lead to unnecessary
          deaths. She also questioned whether medical staff were involved in the evaluation of
          patient care and physician appraisal. Other concerns related to the staff’s failure to follow
          its own bylaws, the lack of written guidelines for certain high-risk patients, and illegibility
          of medical records.

Pharmacy Session

                  One surveyor conducted the pharmacy review, which lasted about 1 hour. The
          hospital’s pharmacy, located in the old part of the hospital, had one full-time pharmacist
          and one part-time technician. The pharmacist’s background was in retail pharmacy and he
          was new to practicing in a hospital.

                  The surveyor reviewed the pharmacist’s license and other documents. She was
          particularly interested in documentation of proper narcotics tracking, logs tracking after-
          hours access to the pharmacy, and protocols for any performance improvement projects.
          In addition to reviewing the papers, she asked for copies to take with her. While in the
          pharmacy she also inspected the hood and scanned the storage shelves, where she noted
          narcotics that were labeled without strength identified.

                   The surveyor’s questions covered the following areas: formulary development,
          mechanism for drug recalls, restocking and security of crash carts, computerization, drug
          utilization review, hospital strategic planning, performance improvement projects, drug
          errors, and reliance on and competency of the pharmacy technician. Because of the

Hospital Quality: The Role of Medicare Certification   22                                 OEI-01-97-00052
                                                                                 APPENDIX C



          obvious humidity problem in the small pharmacy, the surveyor asked questions about the
          impact of the dampness on the efficacy and storage of the drugs.

                  The surveyor focused, however, on narcotics and adverse drug reactions and how
          the hospital tracked them. Apparently the nursing department viewed it as a pharmacy
          responsibility and the pharmacist viewed it as nursing. The surveyor was concerned about
          the lack of accountability and spent a lot of time educating the pharmacist about what he
          needed to track and why, referencing requirements of the Drug Enforcement
          Administration.

Nursing

                  This session lasted about 2 hours and involved the director of nursing and one
          surveyor. The director of nursing was new. In fact, she was the 15th director of nursing
          the hospital hired in 7 years. The surveyor reviewed documentation of the hospital’s nurse
          staffing plan, among other documents. Low staffing and acuity emerged as major
          concerns. Among the topics the surveyor questioned the director of nursing about were:
          reliance on contract nurses, orientation and training of new nurses, determining baseline
          competency, role of charge nurses, nurse roles in tracking and reporting adverse drug
          reactions, anatomical gifts, contingency plans, incident reporting (falls, needle sticks, and
          employee injuries), use of telephone and verbal orders, and infection control.

Statement of Deficiencies Stemming from the Certification Survey

                   Within a few weeks of the on-site portion of the survey, the State agency sent the
          final statement of deficiencies to the hospital. The statement included deficiencies at each
          of the three levels (condition, standard, and element) as noted below:

          Condition of Participation: Governing Body (42 CFR 482.12)

                    Two elements under this condition were unmet, concerning the accountability of
                    the medical staff and its appointment process.

          Condition of Participation: Quality Assurance (42 CFR 482.21)

                    One standard under this condition was unmet, concerning implementation of the
                    quality assurance plan. Two elements under this condition were also unmet, both
                    concerning clinical plans: one because the hospital lacked evidence that it


Hospital Quality: The Role of Medicare Certification   23                             OEI-01-97-00052
                                                                                   APPENDIX C



                    evaluated drug errors and one because it lacked evidence that it evaluated a recent
                    increase in c-sections.

          Condition of Participation: Medical Staff (42 CFR 482.22)

                    This condition was unmet based on the medical staff’s failure to operate under its
                    bylaws and develop or implement a system of accountability. Two standards and
                    four elements were also out of compliance under this condition. One unmet
                    standard concerned the accountability and organization of the medical staff; the
                    other, the medical staff’s failure to abide by its bylaws. The unmet elements
                    included the failure of the medical staff to conduct periodic appraisals of its
                    members and to delineate clinical privileges, among others.

          Condition of Participation: Nursing Services (42 CFR 482.23)

                    Two elements under this condition were unmet. One concerned the lack of
                    individualized nursing care plans for each patient. The other concerned the
                    problems with the reporting of medication errors.

          Condition of Participation: Medical Record Services (42 CFR 482.24)

                    Two elements under this condition were unmet. One concerned illegibility and one
                    concerned delinquent medical records.

          Condition of Participation: Pharmaceutical Services (42 CFR 482.25)

                    One element, concerning the security of drugs, was unmet.

          Condition of Participation: Physical Environment (42 CFR 482.41)

                    One standard was unmet. This element encompassed several concerns related to
                    patient safety and well-being: the lack of working alarm systems, lack of staff
                    knowledge of and response to alarm systems, lack of staff knowledge on certain
                    patient care equipment, lack of safe emergency exits, and lack of mechanism to
                    monitor temperature and humidity in the pharmacy, among others.




Hospital Quality: The Role of Medicare Certification   24                              OEI-01-97-00052
                                                                                 APPENDIX C



          Condition of Participation: Surgical Services (42 CFR 482.51)

                    Two elements were unmet. One concerned the hospital’s failure to delineate
                    surgical privileges in accordance with competency. The other concerned the lack
                    of a properly executed informed consent form.

          Condition of Participation: Emergency Services (42 CFR 482.55)

                    One element was unmet. It concerned the medical staff’s failure to abide by
                    policies and procedures governing care provided in the emergency department and
                    the nursing staff’s failure to adhere to established triage policy.

                   Based on the above findings, the State survey team conducted two more surveys at
          this hospital, both within 2 months of the original survey observed by the OIG. As of the
          last follow-up survey, the hospital had corrected its deficiencies to the satisfaction of the
          survey team.




Hospital Quality: The Role of Medicare Certification   25                             OEI-01-97-00052
                                                                             APPENDIX D



                                                       Endnotes

1. Troyen A. Brennan et al, “Incidence of Adverse Events and Negligence in Hospitalized
Patients,” The New England Journal of Medicine 324 (February 7, 1991) 6: 370-376.

2. The 17.7 percent refers to adverse events considered by the authors to be serious. The authors
defined adverse events as “situations in which an inappropriate decision was made when, at the
time, an appropriate alternative could have been chosen” and serious as ranging from “temporary
disability to death.” See Lori B. Andrews et al, “An Alternative Strategy for Studying Adverse
Events in Medical Care,” The Lancet 349 (February 1, 1997)309-313.

        See also Lucian L. Leape, “Error in Medicine,” Journal of the American Medical
Association 272 (December 21, 1994) 23: 1851-1857; David C. Classes et al, “Adverse Drug
Events in Hospitalized Patients,” Journal of the American Medical Association 277 (January
22/29, 1997) 4: 301-306; Mark R. Chassin et al, “The Urgent Need to Improve Health Care
Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
American Medical Association 280 (September 16, 1998) 11: 1000-1005; David W. Bates et
al,“Effect of Computerized Physician Order Entry and a Team Intervention on Prevention of
Serious Medication Errors,” Journal of the American Medical Association 280 (October 21,
1998) 1311-1316; Robert A. Raschke et al, “A Computer Alert System to prevent Injury from
Adverse Drug Events: Development and Evaluation in a Community Teaching Hospital,” Journal
of the American Medical Association 280 (October 21, 1998) 1317-1320; and David C. Classen,
“Clinical Decision Support Systems to Improve Clinical Practice and Quality of Care,” Journal of
the American Medical Association 280 (October 21, 1998) 1360-1361.

3. One example is a November 1998 New York Times article under the headline: “Death in
Surgery Reveals Troubled Practice and Lax Hospital.” The article described a “botched”
operation on a young woman by a surgeon who was on probation by the State medical board and
who used unauthorized medical equipment brought in to the operating room by a medical supply
salesman. Such incidents happen, even in the best of hospitals, but they underscore the point that
hospitals can be dangerous places and that oversight systems can be lax. See also “Overdoses
Still Weigh heavily at Dana Farber,” The Boston Globe (26 December 1995); “Florida Doctor
Sanctioned in New Amputation,” The Boston Globe (19 July 1995); “Two Surgeons Surrender
Licenses After Mistakenly Removing Kidney,” The Boston Globe (6 June 1996); “How Can We
Save the Next Victim?” New York Times Magazine (15 June 1997); “Another Hospital Death
Probed,” The Boston Globe (26 July 1997); “Patient Dies After Drinking Poison Left on
Nightstand,” San Diego Union-Tribune (6 March 1998); ”Man Arrested for Posing as Doctor for
4 years,” posted at the CNN interactive webpage (16 May 1998); “Deadly Restraint: Patients
Suffer in a System Without Oversight,” The Hartford Courant (13 October 1998).

Hospital Quality: The Role of Medicare Certification      26                      OEI-01-97-00052
                                                                                APPENDIX D



4. http://WWW.hcfa.gov/Medicare/Medicare.htm

5. Health Care Financing Administration, 1996 Data Compendium, HCFA March 1995.

6. Ibid.

7. P.L. 89-97.

8. The HCFA published its proposed hospital conditions of participation on December 17, 1997
(62 Fed. Reg. 66,726). On July 2, 1999, it published an interim final rule on patients’ rights (64
Fed. Reg. 36070).

9. 42 U.S.C 1395bb.

10. Health Care Financing Administration, OSCAR 10 Report, as of May 30, 1998.

11. The industry standard is every 3 years, as set by hospital accrediting organizations, like the
Joint Commission on Accreditation of Healthcare Organizations.

12. From HCFA’s OSCAR System. Special Report Dated Oct. 1, 1997. Data is exclusive of
Puerto Rico, Virgin Islands, and American Samoa.

13. “Until about 1990,...the federal government contributed enough money to do inspections
every year. After that, federal money began diminishing, and last year [1997] it was enough to
finance inspections at only 10 percent of hospitals.” (Nancy Ruzicka, Iowa’s Bureau Chief for
Medicare Certification and Hospital Licensing, in Tom Carney, “Hospital Reviews Judged Too
rare,” Des Moines Register, 7 February 1998.)

14. States conducted 286 certification surveys from October 1, 1994 to September 30, 1995 and
184 certification surveys from October 1, 1996 to September 30, 1997. From HCFA’s OSCAR
System. Special Report Dated Oct. 1, 1997. Data is exclusive of Puerto Rico, Virgin Islands,
and American Somoa.

15. Based on OIG analysis of data reported by HCFA.

16. Those hospitals tend to be small, rural, and remote, making them often difficult to travel to
[Institute of Medicine, Medicare: A Strategy for Quality Assurance, Volume I (Washington,
D.C.: National Academy Press, 1990) 120].

17. Based on Office of Inspector General telephone survey to State Survey and Certification
Agencies, July and August of 1998.

Hospital Quality: The Role of Medicare Certification   27                           OEI-01-97-00052
                                                                                 APPENDIX D



18. HCFA to States, FY 1999 State Survey and Certification Budget Call Program Requirements
and Budget Guidelines.

19. Under current law (42 U.S.C. Sec. 1396r), all skilled nursing facilities and nursing facilities
are subject to a standard survey not later than 15 months after the previous standard survey, with
a Statewide average interval between standard surveys of not more than 12 months. Home health
agencies are subject to a standard survey not later than 36 months after the previous standard
survey (42 USC Sec. 1395bbb). The frequency for surveys of HHAs within this 36 month
interval shall be commensurate with the need to assure delivery of quality home health services.

20. Health Care Financing Administration. The HCFA does not track actual spending by
category.

21. HCFA to States, FY 1999 State Survey and Certification Budget Call Program Requirements
and Budget Guidelines.

22. HCFA funds States to perform a standard survey of every home health agency no later than
36 months after the previous standard survey. In addition, HCFA also funds States to conduct
initial certification surveys for new home health agencies, and more frequent surveys for problem
home health agencies. All told, HCFA will survey about 60-65 percent of all home health
agencies in a given year.

23. From HCFA’s OSCAR-10 Report dated 3/27/97.

24. HCFA to States, FY 1999 State Survey and Certification Budget Call Program Requirements
and Budget Guidelines.

25. State agencies expect certification to play a greater role responding to complaints than
accreditation: 92 percent of the States agencies responding to our survey expected that they be
involved to a great or very great extent while 47 percent of States expected that accrediting
organizations be involved to that extent. States held similar views concerning response to adverse
events involving patient harm: 90 percent expected State certification agencies play a great or
very great role and 58 percent expected accrediting bodies play a great or very great role.

26. The Emergency Medical Treatment and Labor Act (42 U.S.C. 1395dd) prohibits hospitals
from refusing emergency patients or women in labor medical screening and/or treatment. If a
hospital willfully or negligently fails to meet the requirements of the act, it can be fined or its
participation in Medicare can be suspended or terminated.




Hospital Quality: The Role of Medicare Certification   28                            OEI-01-97-00052
                                                                           APPENDIX D



27. “Overdoses Still Weigh Heavily at Dana Farber,” The Boston Globe (26 December 1995);
“Florida Doctor Sanctioned in New Amputation,” The Boston Globe (19 July 1995); “Two
Surgeons Surrender Licenses After Mistakenly Removing Kidney,” The Boston Globe (6 June
1996).; “How Can We Save the Next Victim?” The New York Times Magazine (15 June 1997);
“Another Hospital Death Probed,” The Boston Globe (26 July 1997); “Patient Dies After
Drinking Poison Left on Nightstand,” San Diego Union-Tribune (6 March 1998); “Man Arrested
for Posing as Doctor for 4 years,” posted at the CNN interactive webpage (16 May 1998);
“Deadly Restraint: Patients Suffer in a System Without Oversight,” The Hartford Courant (13
October 1998); and “Death in Surgery Reveals Troubled Practice and Lax Hospital,” The New
York Times (15 November 1998).

28. 42 C.F.R., sec. 488.7.

29. 42 C.F.R., sec. 488.7.

30. 62 Fed. Reg. 66,729, December 19, 1997.

31. The HCFA refers to this data set as OASIS, which stands for Outcomes and Assessment
Information Set (62 Fed. Reg. 11,004, March 10, 1997).

32. Referred to as the Quality Improvement System for Managed Care (QISMC). Under
QISMC, HCFA and State agencies use a uniform set of quality standards to determine that an
organization is eligible to enter into a Medicare or Medicaid contract. These QISMC standards,
which were released in June 1998, are scheduled to be effective as of January 1999.

33. The indicators referred to are those contained in the Health Plan Employee Data and
Information Set (HEDIS), which is the National Committee for Quality Assurance’s (NCQA) set
of performance measures for the managed care. The NCQA collects data from over 300 managed
care plans across the country. The HCFA’s 1997 contracts with risk-based managed care
organizations called for them to submit HEDIS 3.0 data.

34. The HCFA participated in the latest HEDIS development task force. The latest version of
HEDIS contains Medicare and Medicaid specific requirements.

35. 62 Fed. Reg. 11,004, March 10, 1997.




Hospital Quality: The Role of Medicare Certification   29                       OEI-01-97-00052
